Audit Report

Office for Victims of Crime 
Antiterrorism and Emergency Program Grants for Victim Compensation 
Administered by the New York State Crime Victims Board, Albany, New York
Grant Numbers 2001-RF-GX-0002 and 2002-RF-GX-004

Report No. GR-70-05-003


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Antiterrorism and Emergency Assistance Program grant awarded by the U.S. Department of Justice, Office of Justice Programs, Office for Victims of Crime, to the New York State Crime Victims Compensation Board (Board).  The purpose of these grants is to provide compensation to victims for financial losses associated with the terrorist attacks of September 11, 2001.  

We tested the Board's accounting records to determine if reimbursement claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.

The Board generally complied with the requirements of these two grants.  However, we determined and report as questioned costs $246,247 in unallowable expenditures.1   The unallowable expenditures are approximately 2 percent of total expenditures for these grants.  In addition, the Board was not able to provide sufficient documentation relating to grant drawdowns and was not timely in providing progress reports to the Office of Justice Programs. 

Our audit findings and results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for our dollar-related finding and for a definition of questioned costs.